Case: 19-2188

Document: 19-2

Filed: 07/27/2020

Page:.1

(2 of 7)

NOT RECOMMENDED FOR PUBLICATION
No. 19-2188
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CLARENCE MATTHEW OTWORTH,
Plaintiff-Appellant,
v.
PNC BANK,
Defendant-Appellee.

FILED

Jul 27, 2020
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

Vi

v.

11

)
)

ORDER

!!
li
!

/i

/V

Before. STRANCH, THAPAR, and READLER, Circuit Judges.
Clarence Matthew Otworth, proceeding pro se, appeals a magistrate judge’s order
dismissing'his amended complaint filed pursuant to Title III of the Americans with Disabilities
Act (“ADA”), 4? U,g,C, § 12182, other federal statutes, and Michigan law. This case has been
referred to a panel of the court that, upon examination, unanimously agrees that oral argument is
not needed. See Fed. R. App P Wat
Otworth alleges that he is in a wheelchair, cannot walk, and had depended for years on an
aide to shop for him after cashing a check made payable to the aide and drawn from Otworth’s
PNC Bank (“PNC”) account. PNC, however, began charging non-customers a two percent check
cashing fee and would not instead cash Otworth’s check that was presented by the aide but was
made payable to Otworth. Frustrated by the matter, Otworth filed suit on June 4, 2018, against
PNC for money damages pursuant to 42 U.S.C. S 1QBT and state law. He moved for a default
■judgment and attached copies of returns for summonses ostensibly showing that PNC had been
served twice—on June 19, 2018, as well as on July 30, 2018.

i!

II

Case: 19-2188

Document: 19-2

Filed: 07/27/2020

Page: 2

No. 19-2188
-2Before service of the July 30th summons and a month before Otworth’s motion for a default
judgment, PNC moved to dismiss the complaint for failure to state a claim. Otworth filed a
response in opposition, and PNC filed a reply. Otworth then tendered unauthorized sur-replies
that were stricken by the district court. He next moved unsuccessfully for the appointment of
counsel who would appear at hearings and be paid by him, but who would not prepare any
documents.
A magistrate judge recommended denying Otworth’s motion for a default judgment,
reasoning that the June 19th summons had not been issued by the district court and that PNC thus
had not failed to timely defend against the complaint. See Fed. R Civ. P. 55<V). As to PNC’s
motion to dismiss, the magistrate judge recommended that it be granted because Otworth had failed
to state a claim under § 1983 and state law.
Upon consideration of Otworth’s objections, the district court denied Otworth ’s motion for
a default judgment, granted PNC’s motion to dismiss, and granted Otworth leave to file an
amended complaint.
In his amended complaint, Otworth asserted that PNC’s actions violated the ADA

; the
Rehabilitation Act, see i2.-U,S,C, § 12133; Title VI of the Civil Rights Act of 1964, see 42 IJ.S.C.
12<2Qi)d et seq.; and the Uniform Commercial Code. He thereafter moved for summary judgment
on the ground that PNC had conceded his version of the facts by not responding to his request for
admission of facts served with the summons. Otworth stated that he “waived” any hearing
requiring a personal appearance and requested that all hearings be by telephone. He also moved
to join Congress as a defendant.
The magistrate judge set a scheduling conference for March 26, 2019. Otworth and PNC
filed a joint status report, noting that Otworth would appear by telephone and that the parties had
consented to final disposition by the magistrate judge. Unable to reach Otworth on the day of the
hearing despite several attempts, the magistrate judge rescheduled the hearing for April 9 ,2019,
and ordered Otworth to appear in person or risk the dismissal of his case for lack of prosecution.

(3 of 7)

Case: 19-2188

Document: 19-2

Filed: 07/27/2020

Page: 3

No. 19-2188
-3-

In response, Otworth moved for recusal of the magistrate judge, accusing him of bias
toward pro se plaintiffs and arguing that the magistrate judge “knew” that Otworth could not
appear in person and “wantjed] an excuse for dismissing the case.” Otworth requested that the
court call him for the April 9th hearing and explained that a defective telephone handset was being
replaced.
Shortly before the April 9th hearing was to commence, Otworth emailed PNC’s counsel,
stating, Tell the Judge that Captel installed a new telephone in my house yesterday. I will expect
him to call me at 11:00 a.m.” The magistrate judge did not call Otworth when he failed to appear
in person.
Otworth subsequently filed motions to terminate PNC’s counsel, impose sanctions against
counsel, and schedule a telephone conference. These motions were followed by a second motion
for recusal of the magistrate judge. Chief Judge Jonker also placed in the record letters from
Otworth to Attorney General William Barr seeking criminal prosecution of district judges and the
magistrate judge.
In a single order, the magistrate judge denied all of Otworth’s motions and dismissed the
action. The court held that Otworth’s summary judgment motion lacked any legal or factual basis.
It also held that his motion for joinder cited no authority for joining Congress, and that Congress
was not a necessary party. The motions for recusal were denied because the magistrate judge had

no bias against pro se litigants, and the courthouse was accessible to wheelchair-bound litigants.
Additionally, the court noted that personal appearance at a scheduling conference was beneficial
because a pro se litigant could learn the legal process, resolve matters related to litigation, and
consider settlement. The court further held that the motions to terminate counsel and impose
sanctions, premised on counsel’s mere denial of PNC’s liability, were meritless. The motion to
schedule a telephone conference, where Otworth again accused the magistrate judge of bias, was
denied for the same reasons as the motions for recusal.
Finally, the magistrate judge dismissed Otworth’s action as a sanction for failing to appear
at the April 9th scheduling conference. See Fed. R. Civ. P. Ififflm Observing that Otworth’s

(4 of 7)

Case: 19-2188

Document: 19-2

Filed: 07/27/2020

Page: 4

No. 19-2188
-4defective telephone underscored the need for his personal appearance and that his conduct
throughout the litigation indicated a misunderstanding or disregard of the court’s rules, the
magistrate judge concluded that requiring Otworth to appear in person was reasonable. But
Otworth’s persistent refusal to attend any hearings was not, and dismissal was the only appropriate
sanction.
On appeal, Otworth asserts that: (1) PNC’s check-cashing policies violated his rights under
the ADA and other laws; (2) the magistrate judge should have recused himself; (3) the magistrate
judge violated the Fourteenth Amendment by refusing to schedule a trial; and (4) the magistrate
judge violated the ADA by requiring him to appear in person.
We review for an abuse of discretion a district court’s dismissal of a complaint due to a
plaintiff s failure to comply with an order. Mager v. Wis. Cent. Ltd., 924F.3HK31 R37 (6th Cir.
2019).
Esderal Rule,, of Cm'l Procedure 1 b(a) provides that a court may order a pro se litigant to
appear at pretrial conferences. If a litigant “fails to obey a scheduling or other pretrial order,” the
district court may impose sanctions, including dismissal of the action. Fed. R. Civ P. 16ffYiyr:>
(cross-referencing

Ciy, P, 37(b)f2XA)(ii)-(vii)). When contemplating whether to dismiss

an action, a court must consider:
(1) whether the party’s failure is due to willfulness, bad faith, or fault; (2) whether
the adversary was prejudiced by the dismissed party’s conduct; (3) whether the
dismissed party was warned that failure to cooperate could lead to dismissal; and
(4) whether less drastic sanctions were imposed or considered before dismissal
was ordered.
Mager, 22£E,3d at 837 (quoting United States v. Reyes, 307F.3d4S1 4S8 (6th Cir. 2002)).
The district court did not abuse its discretion. First, Otworth willfully violated the
magistrate judge’s order requiring him to appear at the April 9th scheduling conference. As
Otworth had previously and repeatedly indicated that he would participate only by telephone, his
conduct may be deemed contumacious, i.e., “behavior that is perverse in resisting authority and
stubbornly disobedient.” Id. (quoting Carpenter v. City of Flint, 723 F.3d 700 70S (MU Cir.
2013)). Contumacious behavior by itself may warrant dismissal. Id.

(5 of 7)

Case: 19-2188

Document: 19-2

Filed: 07/27/2020

Page: 6

No. 19-2188
-6Accordingly, we AFFIRM the district court’s order.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(7 of 7)

Appendix B

Order Addressing Motions
And Dismissing the Case
(September 26, 2019)

rH

CD
00
ro
CL

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.271 Page 1 of 13

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

CLARENCE MATTHEW OTTWORTH.
Case No. l:18-cv-625
Plaintiff,
Hon. Ray Kent
v.
PNC BANK,
Defendant.
ORDER ADDRESSING MOTIONS
and
DISMISSING THE CASE
Pro se plaintiff Clarence Matthew Ottworth filed this action against PNC Bank.
The parties consented to have a United States Magistrate Judge conduct any and all further
proceedings in the case, including trial and entry of final judgment. This matter is now before the
Court on a number of motions filed by plaintiff.
I.

Background

Plaintiff filed this lawsuit demanding $1,000,000.00 from defendant PNC Bank
(PNC) on a variety of theories. Compl. (ECF No. 1). The Court granted defendant’s motion to
dismiss and allowed plaintiff to re-plead. Order (ECF No. 27, PagelD. 118-119). Plaintiff filed
an amended complaint in which he alleged: that he is in a wheelchair; that he cannot travel to the
bank to cash checks; that he sends his Agent “to collect his money;” and that PNC’s refusal “to
1

1 Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.272 Page 2 of 13

hand over the money to the Agent of the payee” violates the American with Disabilities Act, the
Rehabilitation Act, and an implied private cause of action under Title VI of the Civil Rights Act
of 1964. Amend. Compl. (ECF No. 28).
Prior to the Rule 16 Scheduling Conference, plaintiff filed a motion for summary
judgment (ECF No. 31) asking the Court to dismiss defendant’s answer to the amended complaint,
to grant his motion for summary judgment, and to have “all hearings conducted by telephone”
because he is disabled. Plaintiff also filed a motion to join the United States Congress as a
necessary party to this litigation because Congress enacted the ADA, the Rehabilitation Act, and
the Civil Rights Act of 1964 (ECF No. 32).
Plaintiff did not appear at the original scheduling conference on March 26, 2019.
See Minutes (ECF No. 37). It appears that the parties reached an agreement, without the Court’s
approval, that plaintiff would not appear and that he “will be available by telephone” on March
26th at 10:00 a.m. Joint Status Report (ECF No. 34, PageID.149). Although the Court did not
agree to this procedure, the undersigned’s office attempted to contact plaintiff six times between
10:00 a.m. and 10:33 a.m., but received a recording that the call could not be completed as dialed.
When plaintiff neither appeared nor answered his telephone, the Court continued the scheduling
conference until April 9, 2019, and sent plaintiff a notice advising him that “HE MUST APPEAR
IN PERSON FOR THE CONFERENCE” and that “PLAINTIFF’S FAILURE TO APPEAR MAY
RESULT IN HIS CASE BEING DISMISSED FOR LACK OF PROSECUTION.” See Notice
(ECF No. 36) (emphasis in original).

2

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.273 Page 3 of 13

Plaintiff sent the Court a “response” to the notice stating that he could not place a
telephone call into the original Rule 16 conference because he had a defective handset. Response
(ECF No. 40-1). Plaintiff included as exhibits a copy of a letter from his telephone company
stating he had a defective handset and a copy of his motion to recuse the undersigned for bias and
to order the Court to call him for the April 9th scheduling conference. Plaintiff also filed a
“Motion to recuse Magistrate Judge Kent from this civil action for bias” (ECF No. 39).
Plaintiff failed to appear at the April 9th Rule 16 Conference (see Minutes (ECF
No. 41)). Shortly before the hearing, plaintiff sent PNC’s counsel an email stating, among other
things, that “Tell the Judge that Captel installed a new telephone in my house yesterday. I will
expect him to call me at 11:00 a.m.” (Recorded proceedings) (April 9, 2019).
After he failed to appear for the Rule 16 Conference, plaintiff commenced a
litigation strategy based upon removing PNC’s counsel and the trial judge from this case, which
included a motion for the Court to terminate PNC’s counsel (ECF No. 42), a motion for sanctions
against PNC’s counsel (ECF No. 44), another motion to recuse the undersigned (ECF No. 50), and
a motion for a “telephone scheduling conference” on his terms (ECF No. 47). Plaintiff expanded
his litigation strategy to include the removal of other judges from the Western District of Michigan,
by sending letters to the United States Attorney General to file a criminal complaints against Judge
Robert J. Jonker, Judge Paul L. Maloney, and Magistrate Judge Ray Kent for fraud and obstruction
of justice because no scheduling orders in his pro se lawsuits filed in this Court have issued.
Letter (ECF Nos. 49 and 50).

'

3

•

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.274 Page 4 of 13

Based on his filings, plaintiff takes the position that he can litigate this case from
his home rather than appear in Court, that he is exempt from the Court’s rules regarding pleading
and motion practice, and that he can dictate the result of litigation: by removing judges he does
not like; by discharging the attorneys who represent the adverse party; and by removing judges
through a letter writing campaign directed to the United States Attorney General.
“Pro se litigants are required to follow the rules of civil procedure.”
Cleveland Clinic Foundation, 184 F.R.D. 588, 590 (N.D. Ohio 1999).

Mooney v.

A pro se plaintiff

“volitionally assumes the risks and accepts the hazards which accompany self-representation.”
Graham-Humphreys v. Memphis Brooks Museum ofArt, Inc., 209 F.3d 552, 561 (6th Cir. 2000).
“While courts have historically loosened the reins for pro se parties, the right of self-representation
is not a license not to comply with relevant rules of procedural and substantive law.” Eagle Eye
Fishing Corporation v. United States Department of Commerce, 20 F.3d 503, 506 (1st Cir. 1994)
(internal citations and quotation marks omitted). Thus, when a non-prisoner litigant chooses to
represent himself, “he should expect no special treatment which prefers him over others who are
represented by attorneys.” Brock v. Hendershott, 840 F.2d 339, 343 (6th Cir. 1988).
II.

Motions

A.

Plaintiff failed to file supporting briefs

As an initial matter, plaintiff has failed to file supporting briefs for any of his
motions as required by W.D. Mich. LCivR 7.1(a), which provides in pertinent part that “[a] 11
• motions, except those made orally during a hearing or trial, shall be accompanied by a supporting
brief and that [a] 11 briefs filed in support of or in opposition to any motion shall contain a concise
4

'

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.275 Page 5 of 13

statement of the reasons in support of the party's position and shall cite all applicable federal rules
of procedure, all applicable local rules, and the other authorities upon which the party relies.”
While this Court can deny his motions on that ground, it will address the merits of the motions.
B.

Motion for summary judgment

“The court shall grant summary judgment if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). Rule 56 further provides that a party asserting that a fact cannot be or is
genuinely disputed must support the assertion by:
(A) citing to particular parts of materials in the record, including depositions,
documents, electronically stored information, affidavits or declarations,
stipulations (including those made for purposes of the motion only), admissions,
interrogatory answers, or other materials; or
(B) showing that the materials cited do not establish the absence or presence of a
genuine dispute, or that an adverse party cannot produce admissible evidence to
support the fact.
Fed. R. Civ. P. 56(c)(1).
In Copeland v. Machulis, 57 F.3d 476 (6th Cir. 1995), the court set forth the parties’
burden of proof in a motion for summary judgment:
The moving party bears the initial burden of establishing an absence of evidence to
support the nonmoving party’s case. Once the moving party has met its burden of
production, the nonmoving party cannot rest on its pleadings, but must present
significant probative evidence in support of the complaint to defeat the motion for
summary judgment. The mere existence of a scintilla of evidence to support
plaintiffs position will be insufficient; there must be evidence on which the jury
could reasonably find for the plaintiff.

5

• Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.276 Page 6 of 13

Copeland, 57 F.3d at 478-79 (citations omitted). “In deciding a motion for summary judgment,
the court views the factual evidence and draws all reasonable inferences in favor of the nonmoving
party.” McLean v. 988011 Ontario Ltd., 224 F.3d 797, 800 (6th Cir. 2000).
Plaintiff has failed to present any legal or factual basis to support his motion for
summary judgment. The only document filed in support of his motion is a “Request for admission
of facts which is dated June 20,2018, and plaintiff s claim that he is entitled to summary judgment
because PNC admitted those facts by failing to respond to the request. Contrary to plaintiffs
theory, the request for admission is of no effect because PNC was not a party in this litigation
when he mailed the request on June 20,2018; PNC did not enter its appearance until July 24,2018.
In addition, plaintiff filed the request for admissions in violation of Fed. R. Civ. P. 26(d), which
provides in pertinent part that “[a] party may not seek discovery from any source before the parties
have conferenced as required by Rule 26(f), except in a proceeding exempted from initial
disclosure under Rule 26(a)(1)(B) or when authorized by these rules, by stipulation, or by court
order.” Fed. R. Civ. P. 26(d)(1). For these reasons, plaintiffs motion for summary judgment
(ECF No. 31) is DENIED.1
C.

Motion for joinder

Plaintiff seeks to join the United States Congress as a necessary co-plaintiff in this
case. Plaintiff cites no authority to support this attempt to join Congress into his check-cashing

In a related matter, the Court notes that in his reply brief, plaintiff stated that he “decided to drop” the lawsuit against
PNC at one time, but that now he demands a trial by jury and “if he wins, he will expect the amount that he sued for
one million dollars.” Reply (ECF No. 38, PageID.159). Contrary to plaintiffs statement that he decided to drop the
lawsuit, he did not file any document requesting a voluntary dismissal of this action.

6

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.277 Page 7 of 13

dispute with PNC. While Congress enacted the federal statutes which PNC allegedly violated,
Congress is not a necessary party to plaintiffs lawsuit against PNC. Plaintiff can obtain complete
relief against PNC under those statutes without having Congress as a co-plaintiff. See Fed. R. Civ.
P. 19(a)(1).2 Accordingly, plaintiffs motion for joinder (ECF No. 32) is DENIED.
D.

Motions for recusal

Plaintiff has filed two motions to recuse the undersigned as the trial judge in this
case. The gist of plaintiffs first motion for recusal, which was filed before the April 9,2016 Rule
16 Conference, is that “Judge Kent knows very well that it is impossible for the plaintiff to appear
in person because he cannot walk” and that “Judge Kent just wants an excuse for dismissing the
case.” Motion to recuse (ECF No. 39). In his second motion for recusal, filed on September 11,
2019, plaintiff stated that the undersigned “knew or should have known that the plaintiffs phone
was out of order when he [sic] tried to call him [sic] for the Rule 16 scheduling conference on
March 26, 2019”, and that the undersigned should have not ordered plaintiff to appear in person.
Motion to recuse (ECF No. 50). Plaintiff repeats his statement that “Judge Kent knew very well
that it was impossible for the plaintiff to appear in person because he cannot walk” and that “Judge
Kent just wanted an excuse for dismissing the case.” Id.

1 Fed. R. Civ. P. 19(a) provides in relevant part as follows:
“(1) Required Party. A person who is subject to service of process and whose joinder will not deprive the court of
subject-matter jurisdiction must be joined as a party if: (A) in that person's absence, the court cannot accord complete
relief among existing parties; or (B) that person claims an interest relating to the subject of the action and is so situated
that disposing of the action in the person's absence may: (i) as a practical matter impair or impede the person's ability
to protect the interest; or (ii) leave an existing party subject to a substantial risk of incurring double, multiple, or
otherwise inconsistent obligations because of the interest.”

7

• Case l:18-cv-00625~RSK ECF No. 53 filed 09/26/19 PagelD.278 Page 8 of 13

The standard for recusal is an objective one: “ ‘a judge must recuse [himself] if a
reasonable, objective person, knowing all of the circumstances, would have
questioned the judge’s impartiality.’ “United States v. Sammons, 918 F.2d 592,
599 (6th Cir. 1990) (citation omitted). Petitioner’s mere subjective view does not
support disqualification. See id. (“[T]he judge need not recuse himself based on
the ‘subjective view of a party,’ no matter how strongly that view is held.”) (citation
omitted). “[J]udicial rulings alone almost never constitute a valid basis for a bias or
partiality motion.” Litekyv. UnitedStates, 510 U.S. 540, 555,114S.Ct. 1147,127
L.Ed.2d 474(1994).
Taylor v. McKee, No. l:14-cv-1284, 2015 WL 5593223 at *2 (W.D. Mich. Sept. 21, 2015).
Contrary to plaintiffs contentions, the undersigned has no personal knowledge on
whether plaintiff is in a wheelchair or whether plaintiff “cannot walk.” Even if plaintiff requires
a wheelchair, the federal building is accessible to individuals with disabilities. Individuals who
require wheelchairs appear in both civil and criminal proceedings in this courthouse.
Next, the undersigned is not biased against pro se litigants. The undersigned
handles motions in pro se cases on a regular basis, has been the trial judge in lawsuits brought by
pro se plaintiffs, and has decided Social Security Appeals filed by pro se plaintiffs.

When a pro

se party such as plaintiff files a civil lawsuit, the undersigned requires the pro se party to appear
in person at the scheduling conference. The Court requires personal appearance for a number of
reasons. The Rule 16 scheduling conference sets out the framework for the entire case and gives
the Court and the parties an opportunity to meet in person and address any number of matters
related to the pending litigation. Pro se plaintiffs benefit from familiarizing themselves with the
courthouse, the courtroom, the trial judge, and the opposing party (or attorney). Typically, a
number of preliminary matters are resolved during the Rule 16 Conference which benefits all
parties. The seeds of a settlement are often planted at the Rule 16 Conference, and some parties
8

■

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.279 Page 9 of 13

reach tentative settlements at that time.

In addition, the undersigned utilizes the Rule 16

Conference to explain the legal process to pro se litigants so that they understand how to develop
a legal case for trial and what the Court expects of litigants. For all of these reasons, plaintiffs
subjective view that the undersigned is biased against pro se litigants is unsupported.
Accordingly, plaintiffs motions to recuse (ECF Nos. 39 and 50) are DENIED.
E.
Motion to terminate legal representation provided by Attorney Renner
for defendant PNC Bank
In this motion, plaintiff asks the Court to terminate Attorney Jason Renner’s
representation of PNC Bank because Renner “deliberately lied in the Joint Status Report” (ECF
No. 42, PageID.173) (emphasis omitted). The basis for plaintiffs claim is that his version of
events as recited in the Joint Status Report is correct, that PNC’s version of events “is a flat out
lie”, and that as a result of this lie, plaintiffs motion to terminate the legal representation of
Attorney Renner “must be granted, and substantial sanctions must be imposed to discourage other
attorneys from lying.” Motion (ECF No. 42, PagelD. 174).
In its statement of the case, PNC denied that it is liable to plaintiff:
Defendant’s View: Defendant denies that its non-customer check cashing fee
violates the American with Disabilities Act, the Rehabilitation Act of 1973, or any
other law. Defendant further denies Plaintiff has any other colorable cause of action
against it arising out of its non-customer check cashing fee.
Joint Status Report (ECF No. 34, PagelD.150). Neither PNC nor its attorney did anything wrong
or sanctionable by stating PNC’s position. Plaintiffs motion to terminate PNC’s attorney (ECF
No. 42) is frivolous and DENIED.
F.

Motion for sanctions
9

• Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.280 Page 10 of 13

Plaintiff also seeks sanctions against Attorney Renner pursuant to Fed. R. Civ. P.
11 for the alleged “lies” in the Joint Status Report, i.e., “deliberately lying to the plaintiff and the
court that Defendant PNC Bank did not violate the Americans with Disabilities Act of 1990 (ADA)
by refusing to cash plaintiffs checks unless he presented his checks to the bank himself or paid
their check cashing fee.” Motion for sanctions (ECF No. 44). As a procedural matter, plaintiffs
request for Rule 11 sanctions is improperly filed because he failed to comply with the safe harbor
provisions of Fed. R. Civ. P. 11(c)(2), i.e., “The [Rule 11] motion must be served under Rule 5,
but it must not be filed or be presented to the court if the challenged paper, claim, defense,
contention, or denial is withdrawn or appropriately corrected within 21 days after service or within
another time the court sets.” The Sixth Circuit “has expressly ruled that Rule 11 is unavailable
where the moving party fails to serve a timely ‘safe harbor’ letter.” First Bank of Marietta v.
Hartford Underwriters Insurance Co., 307 F.3d 501, 510-11 (6th Cir. 2002).
Even if plaintiff had met the safe harbor requirement, his motion is without merit
because neither PNC nor its attorney engaged in sanctionable conduct. See discussion, § II.D.,
supra. Accordingly, plaintiffs motion for sanctions (ECF No. 44) is DENIED.
G.
Motion for scheduling conference, or in the alternative Motion for
commencement of discovery
In this motion, plaintiff states that “[t]his matter should have been disposed of in
March [2019], but it wasn’t because of the bias of the Magistrate Judge Ray Kent against pro se
litigant plaintiff Clarence Otworth,” and plaintiff requests “that a telephone scheduling conference
be held as soon as possible, or grant plaintiffs alternative motion for commencement of
discovery.” Motion for scheduling conference (ECF No. 47). This matter having come full
10

‘ Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.281 Page 11 of 13

circle, plaintiff once again wants to litigate this case via telephone. For the reasons discussed,
plaintiffs motion regarding a scheduling conference and to commence discovery (ECF No. 47) is
DENIED.

m.

Dismissal

In its notice of hearing issued on March 26, 2019, the Court advised plaintiff that
the scheduling conference would be held on April 9, 2019, at 11:00 a.m. and further advised
plaintiff as follows:
CONTINUATION OF RULE 16 SCHEDULING CONFERENCE SET
FOR MARCH 26, 2019, AT 10:00 A.M. PLAINTIFF IS NOTIFIED THAT HE
MUST APPEAR IN PERSON FOR THE CONFERENCE. PLAINTIFF'S
FAILURE TO APPEAR MAY RESULT IN HIS CASE BEING DISMISSED FOR
LACK OF PROSECUTION.
Notice (ECF No. 36) (emphasis in original). As discussed, plaintiff failed to appear in person as
ordered by the Court.
Since commencing this lawsuit, plaintiff has filed meritless motions. As discussed,
plaintiff did not attend the March 26th Rule 16 Conference and did not seek the Court’s permission
to attend by telephone. When plaintiff failed to appear, the Court could not reach him because
his telephone was apparently out of order. The fact that plaintiff has a defective telephone
underscores the Court’s requirement that he appear in person. When the Court adjourned the Rule
16 Conference until April 9th, the Court made clear to plaintiff that he had to appear in person.
In this regard, the Court was aware of plaintiffs past conduct which indicated that he either
misunderstood or disregarded Court rules, e.g.: plaintiff s improper attempts to serve PNC;
plaintiffs improper attempt to secure a default judgment against PNC; plaintiffs filing of
11

“ ‘ ' *

Case l:18-cv-00625-RSK ECF No. 53 filed 09/26/19 PagelD.283 Page 13 of 13

proceeding in whole or in part.” Fed. R. Civ. P. 16(f)(1), citing Fed. R. Civ. P. 37(b)(2)(v). In
this instance, the Court advised pro se plaintiff that his action may be dismissed if he failed to
appear at the April 9, 2019, scheduling conference. This Court cannot adjudicate a plaintiffs
claim if the plaintiff refuses to appear in court when ordered. Plaintiff is steadfast in his position
that he can litigate this case at home over the telephone. Plaintiff cannot prosecute his case if he
will not appear in Court or follow the Court’s orders. Under the facts of this case, there is no
lesser sanction that the Court can consider than to dismiss plaintiffs lawsuit.
Accordingly, this case is DISMISSED.
IT IS SO ORDERED.
Dated:

September 26, 2019

/s/ Ray Kent
United States Magistrate Judge
r\
^Certified as a True Copy

JKU , _ X.
ueputy Clerk"
U.S. District Court
Western Dlst. of Michigan
Date

13

